      Department of Homeland Security





      National Protection and Programs Directorate’s
     Management Letter for FY 2012 DHS Consolidated
                 Financial Statements Audit




OIG-13-67                                       April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                      APR 5 2013

MEMORANDUM FOR:              Michael Butcher
                             Director of Management
                             National Protection and Programs Directorate

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     National Protection and Programs Directorate’s
                             Management Letter for FY 2012 DHS Consolidated
                             Financial Statements Audit

Attached for your information is our final report, National Protection and Programs
Directorate’s Management Letter for FY 2012 DHS Consolidated Financial Statements
Audit. This report contains observations related to internal control deficiencies that
were not required to be reported in the Independent Auditors’ Report on DHS’ FY 2012
Financial Statements and Internal Control over Financial Reporting. Internal control
deficiencies that are considered significant deficiencies were reported, as required, in
the Independent Auditors’ Report, dated November 14, 2012, which was included in the
DHS fiscal year (FY) 2012 Annual Financial Report. We do not require management’s
response to the recommendations.

The independent public accounting firm KPMG LLP conducted the audit of DHS’
FY 2012 financial statements and is responsible for the attached management letter
dated March 12, 2013, and conclusions expressed in it. We do not express opinions on
DHS’ financial statements or internal control, nor do we provide conclusions on
compliance with laws and regulations.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security National Protection and Programs Directorate
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012 and the related statements of net cost, changes in net position and custodial activity,
and combined statement of budgetary resources for the year then ended (referred to herein as the “fiscal
year (FY) 2012 financial statements”). The objective of our audit was to express an opinion on the fair
presentation of these financial statements. We were also engaged to examine the Department’s internal
control over financial reporting of the FY 2012 financial statements, based on the criteria established in
Office of Management and Budget (OMB), Circular No. A-123, Management’s Responsibility for Internal
Control, Appendix A.
Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion on
the DHS’ FY 2012 financial statements and internal control over financial reporting. In addition, the FY
2012 DHS Secretary’s Assurance Statement states that the Department was able to provide qualified
assurance that internal control over financial reporting was operating effectively at September 30, 2012.
We have not considered internal control since the date of our Independent Auditors’ Report.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in the
paragraph above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.
The National Protection and Programs Directorate (NPPD) is a component of DHS. We noted certain
matters, related to NPPD, that are summarized in the Table of Financial Management Comments on the
following pages, involving internal control and other operational matters that are less severe than a material
weakness or a significant deficiency, and consequently are reported separately to the Office of Inspector
General (OIG) and NPPD management in this letter. These comments and recommendations, all of which
have been discussed with the appropriate members of management, are intended to improve internal
control or result in other operating efficiencies. The disposition of each internal control deficiency
identified during our FY 2012 audit – as either reported in our Independent Auditors’ Report, or herein – is
presented in Appendix A. The status of internal control deficiencies identified during our FY 2011 audit is
presented in Appendix B.
We would be pleased to discuss these comments and recommendations with you at any time. This report is
intended for the information and use of the DHS’ and NPPD’s management, the DHS OIG, the U.S. OMB,
the U.S. Congress, and the Government Accountability Office, and is not intended to be and should not be
used by anyone other than these specified parties.
Very truly yours,




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                           National Protection and Programs Directorate
                            Table of Financial Management Comments
                                       September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC) 


 Comment
 Reference   Subject                                                                          Page

FMC 12-01    Inadequate Purchase Request Information System (PRISM) to Federal Financial       2

             Management System (FFMS) Reconciliation

FMC 12-02    Federal Protective Services (FPS) Accounts Receivable Allowance                   2

FMC 12-03    Unfilled Customer Orders (UCOs) Not Recorded for Recurring Security Agreements    2

FMC 12-04    FPS Headquarters Security Billing Review                                          3

FMC 12-05    Untimely De-obligation of Undelivered Order (UDO) Balances                        3

FMC 12-06    Accounts Payable Estimate Methodology                                             3



APPENDIX

 Appendix    Subject                                                                          Page

    A        Crosswalk – Financial Management Comments to Active Notices of Finding and        5

             Recommendation (NFRs)

    B        Status of Prior Year NFRs                                                         6





                                                  1

                             National Protection and Programs Directorate
                                  Financial Management Comments
                                         September 30, 2012


FMC 12-01 – Inadequate Purchase Request Information System (PRISM) to Federal Financial
Management System (FFMS) Reconciliation (NFR No. NPPD 12-01)

       National Protection and Programs Directorate (NPPD) uses PRISM – a procurement module
       outside of FFMS – to initiate obligations. Since PRISM does not interface with the general ledger
       (GL) system, FFMS, NPPD financial management personnel manually record obligations from
       PRISM into FFMS.

       During our test of design and implementation of NPPD’s FFMS to PRISM reconciliation, we
       noted that policies and procedures are in place for the reconciliation process; however, NPPD did
       not perform the reconciliation with a regular frequency during fiscal year (FY) 2012. As of the
       date of our walkthrough with NPPD on July 19, 2012, the FFMS to PRISM reconciliation was
       last performed in January 2012.

       Recommendation:
       We recommend that NPPD perform the FFMS to PRISM reconciliation with regular frequency.

FMC 12-02 – Federal Protective Services (FPS) Accounts Receivable Allowance (NFR No. NPPD
12-03)

       FPS is responsible for security of government facilities. Through different methods, FPS bills
       customers every month for their portion of the security cost. When a payment is not received, an
       accounts receivable balance is recorded in the GL and a review takes place to identify and attempt
       to collect on these charges.

      During our walkthrough over the March 31, 2012, accounts receivable review process, we noted
      the following:
      •	 Approximately 25 percent of the FPS Accounts Receivable balance, primarily Federal, was
          over 180 days uncollected.
      •	 Open accounts receivable balances ranged from 1 day to 2,298 days uncollected.
      •	 FPS does not have policies and procedures in place to identify, review, and resolve
          uncollected amounts related to Federal accounts receivable.

       Recommendation:
       We recommend that NPPD implement policies and procedures to identify, review, and resolve
       uncollected amounts related to Federal accounts receivable.

FMC 12-03 –Unfilled Customer Orders (UCOs) Not Recorded for Recurring Security Agreements
(NFR No. NPPD 12-05)

       NPPD FPS does not record UCOs for recurring agreements because these types of agreements are
       performed within the span of the fiscal year (i.e. annual agreements) and are billed on a 1/12th
       basis whereby 1/12th of the total agreement amount is billed each month.

       Recommendation:
       We recommend that NPPD record and track unfilled customer orders for all security work
       agreements.



                                                   2

                            National Protection and Programs Directorate
                                 Financial Management Comments
                                        September 30, 2012


FMC 12-04 – FPS Headquarters Security Billing Review (NFR No. NPPD 12-06)

      During our walkthrough over the review of the FPS headquarters security billings file, we noted
      that the current review process is not properly designed to identify and correct misstatements of
      inaccurate billings.

      During our testwork over a sample of 19 security revenue transactions, we identified five
      exceptions. Five FY 2012 sample amounts contained transactions related to FY 2011 revenue
      adjustments. While preparing and reviewing the monthly security charges, these amounts were
      not properly excluded from FY 2012 revenue. Specifically, three of the five sample amounts
      related to an increase in revenue, while the other two sample amounts related to a decrease in
      revenue.

      Recommendation:
      We recommend that NPPD FPS strengthen its current procedures or develop and implement new
      procedures to apply billing adjustments to revenue balances in the proper period.

FMC 12-05 – Untimely De-obligation of Undelivered Order (UDO) Balances (NFR No. NPPD 12­
07)

      NPPD lacks effective controls over the verification and validation of UDOs which resulted in
      substantive errors. The verification and validation reviews performed by the financial managers
      indicate reliance on responses from field office personnel to determine the validity of open
      obligations which at times are inaccurate, do not indicate a rigorous review of the open
      obligations, or do not contain sufficient information for the financial managers to make an
      informed decision about the balance.

      We selected a statistical sample of 40 items from the population of UDOs as of September 30,
      2012. Based on our review, we noted that for 3 of the 40 UDOs tested, the contract/agreement
      POP had ended and the contract/agreement was no longer valid; however, the unused balances
      had not been properly de-obligated.

      Recommendations:
      We recommend that NPPD:
      •	 Strengthen its verification and validation review of UDOs to adequately consider whether
         balances should be de-obligated.
      •	 Improve communication between financial management and field office personnel during the
         review so that the final determination for each UDO balance is clearly documented.

FMC 12-06 – Accounts Payable Estimate Methodology (NFR No. NPPD 12-12)

      NPPD’s accounts payable estimation review – as performed by its service provider, Immigration
      and Customs Enforcement (ICE) Office of Financial Management (OFM) – is not designed
      effectively to ensure that the estimate is accurately recorded. Specifically, we noted during FY
      2012 that ICE OFM was limiting the accounts payable estimate in certain budget object
      classifications and Program Codes to the total amounts that were obligated according to the
      obligation balances in those specific combinations. This limitation reduces the estimate amount



                                                  3

                      National Protection and Programs Directorate
                           Financial Management Comments
                                  September 30, 2012


without consideration for whether the reduction is necessary or meaningful to the estimate on the
whole.

Recommendation:
We recommend that NPPD and ICE OFM further refine the accrual process to determine and
accrue for the highest allowable attribute posting in FFMS so that an adequate accounts payable
accrual is recorded each month.




                                            4

                                                                                                             Appendix A
                                National Protection and Programs Directorate
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2012


                                                                                                  Disposition1
                                                                                                 IAR                 FMC
NFR No.       Description                                                               MW        SD        NC       No.
              Inadequate Purchase Request Information System (PRISM) to Federal
12-01                                                                                                               12-01
              Financial Management System (FFMS) reconciliation
              Inadequate review and write down of Risk Assessment and Management
12-02                                                                                              F
              Program
12-03         Federal Protective Services (FPS) Accounts Receivable Allowance                                       12-02
12-04         Number not used                                                                     Not applicable
              Unfilled Customer Orders (UCOs) Not Recorded for Recurring Security
12-05                                                                                                               12-03
              Agreements
12-06         FPS Headquarters Security Billing Review                                                               12-04
12-07         Untimely de-obligation of Undelivered Order (UDO) balances                                            12-05
12-08         Potential violation of the Anti-deficiency Act (ADA)                                           L
12-09         Number not used                                                                     Not applicable
12-10         Number not used                                                                     Not applicable
12-11         Entity Level Controls (ELCs)                                                         F
12-12         Accounts Payable Estimate Methodology                                                                 12-06
              Property Plant and Equipment (PP&E) Held at Other Agency Not
12-13                                                                                              F
              Timely Recorded
1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 14, 2012
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                              5

                                                                                                                   Appendix B
                                    National Protection and Programs Directorate
                                             Status of Prior Year NFRs
                                                September 30, 2012


                                                                                                  Disposition1
    NFR                                                                                                       Repeat
            Description                                                                           Closed2
    No.                                                                                                       (2011 NFR No.)
            Inadequate Internal Controls over Reporting of Government Furnished Equipment
    11-01                                                                                             X
            Asset Disposals
            Subject to Availability of Funding Agreements Not Obligated in Federal Financial
    11-02                                                                                             X
            Management System (FFMS) at Outset of Agreement
    11-03   Potential Antideficiency Act (ADA) Violation                                                      NPPD-12-08
            Inadequate Internal Controls over Reporting of Internal Use Software (IUS)
    11-04                                                                                             X
            Projects
    11-05   Inadequate Internal Controls over Reporting of Equipment                                          NPPD-12-13
    11-06   Untimely Reporting of Leasehold Improvements                                              X


1
 KPMG was engaged to perform an audit over the DHS balance sheet as of September 30, 2012, and the related statements of net
cost, changes in net position and custodial activity, and combined statement of budgetary resources for the year then ended. In
addition, we were engaged to follow up on the status of all active NFRs that supported significant deficiencies reported in our FY
2011 Independent Auditors’ Report.
2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                                6

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   National Protection and Programs Directorate

   Under Secretary
   Director of Management
   Liaison

   U.S. Immigration and Customs Enforcement

   Chief Financial Officer
   Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-13-67
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
